                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I07020006                                                                       Page 1 of 1



        We investigated a matter that arose out of a proactive review to determine whether the awardee
        (University) reported and properly expended program income. It appeared from the review of an
        NSF award,' that the university had not reported program income in the FCTR as required,
        despite the fact that it appeared to have collected registration fees for the funded conference.
        Therefore, NSF OIG requested that the University provide information and supporting
        documentation for program income earned and expended for the award at issue.

        The University originally responded that it had collected registration fees3 for the conference, but
        later informed NSF OIG that it had erred, and that the program income initially reported was
        actually earned from other previous unrelated awards. Further, the University provided
        supporting documentation to establish that the NSF award funds were used to fund participant
        support (including registration fees) for individuals to attend the conference(s), not to host or
        produce the conference at issue, so that no registration fees were collected or program income
        earned with respect to the NSF award.

                  Accordingly, this case is closed.




        ' Redacted
          Redacted
          Redacted




SF OIG Fonn 2 (11/02)

                                                       "
